                                                                         MINE SAFETY AND HEALTH

U.S. Department of Labor                                                 ADMINISTRATION


                           Office of Inspector General—Office of Audit




                                                                         MSHA CAN IMPROVE ITS SECTION 110
                                                                         SPECIAL INVESTIGATIONS PROCESS




                                                                                             Date Issued:   September 30, 2013
                                                                                          Report Number:      05-13-008-06-001
U.S. Department of Labor                                     September 2013
Office of Inspector General
Office of Audit
                                                             MSHA CAN IMPROVE ITS SECTION 110
                                                             SPECIAL INVESTIGATIONS PROCESS

BRIEFLY…
Highlights of Report Number 05-13-008-06-001, issued         WHAT OIG FOUND
to the Assistant Secretary for Mine Safety and Health.       In our sample of §110 special investigations initiated
                                                             and completed during FYs 2010 through 2012, we
WHY READ THE REPORT                                          found:
The purpose of the Mine Safety and Health
Administration (MSHA) is to prevent death, disease,              •   MSHA did not meet its timeframe goals in 70
and injury from mining and to promote safe and                       percent of the cases reviewed;
healthful workplaces for the Nation’s miners. The                •   One or more documents required by MSHA’s
Federal Mine Safety and Health Act of 1977, §110(c),                 policy were missing from 8 percent of the case
gives MSHA the authority to propose penalties against                files;
agents of mine operators who knowingly fail or refuse to         •   MSHA did not document why it did not initiate
comply with any citation or order MSHA issues or                     an investigation for 6 percent of the cases
violate mandatory health or safety standards.                        reviewed; and
                                                                 •   TCIO failed to record credential issuance and
MSHA’s Technical Compliance and Investigations                       expiration dates for 23 percent of Special
Office (TCIO) within the Office of Assessments,                      Investigators.
Accountability, Special Enforcement and Investigations
is responsible for the overall administration of the         Each of these weaknesses was compounded by an
National Special Investigations Program which governs        Information Technology system that did not allow TCIO
investigations under §110. This includes overseeing          to easily track data related to special investigations.
investigations conducted by the Districts, reviewing
case files, coordinating with the Office of the Solicitor,   In its response, MSHA disagreed with one of the OIG’s
providing initial and refresher training to Special          three findings and conclusions. MSHA stated that the
Investigators, and assisting the U.S. Department of          §110 special investigations timeframes were general
Justice with criminal prosecution that may result from       management goals, and were not statutory or
investigations.                                              regulatory requirements. The primary cause for not
                                                             meeting the timeframes was the need to conduct
WHY OIG CONDUCTED THE AUDIT                                  thorough investigations and prioritizing work of Special
The Office of Inspector General (OIG) as part of our         Investigators. MSHA agreed that a review of the
audit oversight responsibility, performed work to answer     documentation requirements would be beneficial and its
the following question:                                      information systems need to be enhanced to manage
                                                             all aspects of investigations.
Is MSHA appropriately initiating and completing §110
special investigations?                                      WHAT OIG RECOMMENDED
                                                             The OIG recommended the Assistant Secretary for
Our audit work covered all §110 special investigations       Mine Safety and Health: (a) reevaluate its §110
initiated and completed during Fiscal Years (FY) 2010        activities or goals so as to better measure the
through 2012. We reviewed and analyzed MSHA’s                program’s performance; (b) assess and revise
policies and procedures; interviewed key officials;          documentation guidance; and (c) take steps to
reviewed case files and training records; analyzed data;     consolidate information into a single source to facilitate
and reviewed MSHA’s Standardized Information                 the management of all aspects of investigations.
System (MSIS) documentation.
                                                             MSHA disagreed with the OIG’s first recommendation.
READ THE FULL REPORT                                         MSHA stated that the special investigators’ need to
To view the report, including the scope, methodology,        balance demands and prioritize other work assignments
and full agency response, go to:                             impacts §110 timeframes. MSHA agreed with the
                                                             recommendation on documentation guidance and
http://www.oig.dol.gov/public/reports/oa/2013/05-13-         information for managing special investigations.
008-06-001.pdf.
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                   MSHA Can Improve Its Section 110 Process
                              Report No. 05-13-008-06-001
                                                       U.S. Department of Labor – Office of Inspector General




Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Results In Brief .............................................................................................................. 2

Objective — Is MSHA appropriately initiating and completing §110 special
investigations? ................................................................................................................ 4
               MSHA did not always meet its timeframe goals, maintain required
               documentation, or have adequate systems to track special
               investigations. ................................................................................................. 4

          Finding 1 — MSHA Did Not Always Meet §110 Timeframe Goals ....................... 4
          Finding 2 — MSHA's §110 Case File Documentation was Inconsistent ............... 6
          Finding 3 — MSHA Did Not Maintain Adequate §110 Data Systems ................... 8

Recommendations ...................................................................................................... 10

Appendices
          Appendix A Background ..................................................................................... 13
          Appendix B Objective, Scope, Methodology, and Criteria .................................. 15
          Appendix C Acronyms and Abbreviations .......................................................... 19
          Appendix D MSHA's Response to Draft Report .................................................. 21
          Appendix E Acknowledgements ......................................................................... 25




                                                                     MSHA Can Improve Its Section 110 Process
                                                                                Report No. 05-13-008-06-001
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                   MSHA Can Improve Its Section 110 Process
                              Report No. 05-13-008-06-001
                                              U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                          Office of Inspector General
                                                  Washington, D.C. 20210




September 30, 2013

                              Assistant Inspector General’s Report

Joseph A. Main
Assistant Secretary
 for Mine Safety and Health
U.S. Department of Labor
1100 Wilson Blvd.
Arlington, VA 22209

The purpose of the Mine Safety and Health Administration (MSHA) is to prevent death,
disease, and injury from mining and to promote safe and healthful workplaces for the
Nation’s miners. §110(c) of the Federal Mine Safety and Health Act of 1977 (Mine Act)
gives MSHA the authority to propose penalties against individuals – agents of mine
operators – who knowingly fail or refuse to comply with any citation or order MSHA
issues or who violate mandatory health or safety standards. In Fiscal Year (FY) 2012,
MSHA completed 292 §110 special investigations, proposing $861,620 in penalties
against individuals.

MSHA’s Technical Compliance and Investigations Office (TCIO) within the Office of
Assessments, Accountability, Special Enforcement and Investigations is responsible for
the overall administration of the National Special Investigations Program, which governs
investigations under §110. This responsibility includes overseeing investigations
conducted by the Districts, 1 reviewing case files, coordinating with the Office of the
Solicitor (SOL), providing initial and refresher training to Special Investigators, and
assisting the U.S. Department of Justice (DOJ) with criminal prosecution that may result
from investigations.

When MSHA Inspectors issue a citation or order during the course of regular
inspections, they must evaluate if any agent of the company knew of or willfully caused
the cited condition using a “Possible Knowing/Willful Violation Review” (PKW) form.
Districts initiate a §110 special investigation following the review of these forms to
determine if the violations were “knowing,” “willful,” or any other situation in which the
District Manager believes an investigation is necessary. When recommending a civil
penalty or criminal referral, Districts send completed investigation reports to TCIO for
review. Upon completion of its review, TCIO may send the case to SOL for action or
close the case. SOL refers certain cases to the DOJ for criminal prosecution.




1
    MSHA has 12 Coal Districts and 6 Metal/Non-Metal Districts.

                                                            MSHA Can Improve Its Section 110 Process
                                                      1                Report No. 05-13-008-06-001
                                            U.S. Department of Labor – Office of Inspector General


The Office of Inspector General (OIG) conducted a performance audit to answer the
following question:

      Is MSHA appropriately initiating and completing §110 special investigations?

Our audit work covered all §110 special investigations initiated and completed during
FYs 2010 through 2012. We reviewed and analyzed MSHA’s policies and procedures;
interviewed key officials; reviewed case files and training records; analyzed data; and
reviewed MSHA’s Standardized Information System (MSIS) documentation. Our
objective, scope, methodology, and criteria are detailed in Appendix B.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

RESULTS IN BRIEF

In general, we found that once MSHA initiated a §110 special investigation, the
investigation was conducted properly. However, in many cases, MSHA did not initiate
investigations and review case files within established timeframe goals. Moreover,
MSHA did not always document the rationale for not pursuing certain investigations. We
also noted some investigative case files did not include all necessary documentation.
Finally, MSHA was not ensuring Special Investigator credentials it issued were properly
tracked. Each of these weaknesses was compounded by an IT system that did not allow
TCIO to track sufficient data related to special investigations.

Timeliness

MSHA’s Districts did not always initiate investigations and submit cases to TCIO or SOL
within established timeframes. Of the 93 2 case files we reviewed, Districts did not
initiate 24 investigations within 60 calendar days and did not submit 37 cases to TCIO
within 150 calendar days as stated in MSHA’s policy. In addition, TCIO did not forward
29 cases to SOL within 210 calendar days as specified in MSHA’s policy. This occurred
partly because: MSHA did not consider its timeframes mandatory, but instead
considered them “goals;” discrimination cases under §105 statutorily take priority; and
TCIO had a significant number of cases pending review.

Documentation

MSHA Districts did not include required documents in some investigation case files. Of
the 93 case files we reviewed, 7 were missing one or more documents required by

2
    MSHA initiated and completed 888 cases in FYs 2010 through 2012.

                                                       MSHA Can Improve Its Section 110 Process
                                                   2              Report No. 05-13-008-06-001
                                     U.S. Department of Labor – Office of Inspector General


MSHA’s policy. District Managers did not always document the rationale supporting why
an investigation was not warranted. Five cases in our sample did not contain the
documentation required to support a decision not to investigate. We had to review other
documentation to understand (and agree with) MSHA’s ultimate decision in those
cases.

System Issues

The MSIS did not allow TCIO to compile or track all data related to investigations.
Specifically, the system did not associate event numbers with case numbers, issued
citations, assessments, and settlements. To compensate, TCIO maintained some data
related to the events and cases in an ad hoc database. However, this ad hoc system did
not maintain sufficient information to make it useful in managing the process without
requiring additional effort.

We found MSHA did not maintain an adequate process to track credentials issued to
Special Investigators. The 93 investigations we reviewed were conducted by 80 Special
Investigators, who we determined were properly credentialed. However, we found that
TCIO failed to document credential issuance and expiration dates in an ad-hoc system
for 18 of these Special Investigators. Without this information, MSHA may not be able to
ensure expired credentials were renewed or properly disposed of when no longer
needed.

We recommend that the Assistant Secretary for MSHA: (a) reevaluate its §110 activities
or goals to better measure the program’s performance; (b) assess and revise
documentation guidance; and (c) take steps to consolidate information into a single
source to facilitate the management of all aspects of investigations.

MSHA’s Response

MSHA disagreed with the OIG’s first finding and recommendation, stating that the
§110 special investigations timeframes were general management goals, and not
statutory or regulatory requirements. MSHA indicated that the primary causes for not
meeting the timeframes was the need to conduct thorough investigations and the need
to prioritize special investigators work assignments. Specifically, meeting mandated
deadlines imposed in §105(c) discrimination cases takes precedence over completing
§110 special investigations. Also, during FYs 2010 through 2012, MSHA enforcement
personnel were involved in the investigation of the Upper Big Branch mine explosion
and the concurrent internal review.

MSHA agreed that it would be beneficial to review and assess the documentation in
their Special Investigations Procedures Handbook. MSHA is currently updating this
handbook and will revise the documentation requirements, as appropriate, and provide
documentation training.



                                               MSHA Can Improve Its Section 110 Process
                                           3              Report No. 05-13-008-06-001
                                       U.S. Department of Labor – Office of Inspector General


MSHA also agreed that its management information system needs to be enhanced to
manage all aspects of the §110 special investigations program. However, MSHA did not
agree with the all of the finding and took exception to a statement regarding information
for tracking Special Investigators’ credentials. MSHA maintains that even when
credential information was not in the system, it was maintained and accessible at
MSHA.

The Assistant Secretary’s entire response is contained in Appendix D.

OIG’s Conclusion

We recognize that MSHA’s §110 special investigation timeframe goals are not required
by statute or regulation. However, agencies must establish performance goals whether
or not required by statute in order to allow management to monitor and assess their
operations, and to effectively and efficiently allocate resources. We continue to believe
MSHA should reevaluate either the program’s activities, the reasonableness of the
timeframe goals, or both. Failing to establish performance measures robs an agency of
the ability to determine and report its effectiveness and efficiency.

We stand by the statements in the report regarding Special Investigator credential
information. While any agency may have all the information it needs stored in various
places, having the information located in the system of record is more efficient.
Maintaining this information ensures MSHA can efficiently and effectively protect Special
Investigator credentials.


RESULTS AND FINDINGS

Objective — Is MSHA appropriately initiating and completing §110 special
              investigations?

      MSHA did not always meet its timeframe goals, maintain required documentation,
      or have adequate systems to track special investigations.

In general, we found that once MSHA initiated a §110 special investigation, the
investigation was conducted properly. However, MHSA could improve its National
Special Investigations Program by: (a) initiating investigations and submitting cases to
TCIO or SOL more timely; (b) ensuring Districts always document the rationale when an
investigation is not warranted and include all required documents in case files;
(c) tracking all Special Investigator credentials issued; and (d) ensuring sufficient data is
available to manage all aspects of the program.

Finding 1 — MSHA Did Not Always Meet §110 Timeframe Goals

MSHA Districts did not always initiate and submit §110 special investigation cases to
TCIO and TCIO did not always submit cases to SOL within its timeframe “goals.” GAO

                                                  MSHA Can Improve Its Section 110 Process
                                              4              Report No. 05-13-008-06-001
                                               U.S. Department of Labor – Office of Inspector General


Standards for Internal Control in the Federal Government require agencies to establish
and review performance measures and establish activities to monitor them. When
monitoring measures, program managers need to determine if they are meeting the
goals for effective and efficient use of resources. MSHA established goals for
completing §110 special investigation in its Special Investigations Procedures Handbook
(Handbook). According to the Handbook, Districts should conduct investigations of
possible knowing and/or willful violations as quickly as possible, but MSHA stresses that
its timeframes for §110 special investigations are goals and not statutory requirements.
The timeframes begin from the date of the issuance of the citation or order, or from the
date when MSHA had actual notice of the incident.

When MSHA Inspectors issue a citation or order during the course of regular
inspections, they must evaluate if any agent of the company knew of or willfully knew of
the condition using a PKW form. Districts initiate a §110 special investigation following
the review of these forms if the facts support the need for an investigation. According to
MSHA’s goals, after the District Manager approves the start of an investigation and a
case number and Special Investigator have been assigned, Districts should initiate
cases within 60 calendar days and submit completed cases for which a civil penalty is
recommended to TCIO within 150 calendar days. TCIO should submit cases to SOL for
legal opinions, when required, within 210 calendar days. When MSHA pursues civil
penalties, TCIO should refer the case to the Office of Assessments within 220 calendar
days. Districts should forward potential criminal investigative case files to TCIO within
120 days of the date of the underlying violation. TCIO and SOL will review and analyze
the case, and if warranted, should refer it to DOJ within 240 calendar days.

In our sample of 93 cases, we found 90 instances in 65 cases (70 percent) where
MSHA did not meet its timeframe goals. 3

         MSHA Districts did not initiate 24 (26 percent) §110 special investigations within
          60 calendar days after the citation/order date. The Districts initiated these
          investigations between 3 to 219 calendar days after the 60-day timeframe (with
          an average of 58 calendar days).

         MSHA Districts did not submit 37 cases (26 percent) to TCIO within 150 calendar
          days of the citation/order issuance date. 4 Districts submitted these cases to TCIO
          between 1 to 406 calendar days after the 150-day timeframe (with an average of
          132 calendar days).

         TCIO did not submit 29 cases (31 percent) to SOL within 210 calendar days. The
          cases were submitted to SOL between 1 to 638 calendar days after the 210-day
          timeframe (with an average of 224 calendar days).

There were many reasons why these timeframes were not always met. For example:

3
    During FYs 2010 through 2012, MSHA initiated and completed 888 §110 special investigations.
4
    In one case, the District Manager submitted an extension request but did not complete the case timely.

                                                           MSHA Can Improve Its Section 110 Process
                                                      5               Report No. 05-13-008-06-001
                                          U.S. Department of Labor – Office of Inspector General


       §105(c) discrimination investigations are statutorily required to start within
        15 days of the Secretary’s receipt of the complaint. §110 special investigations
        have no such mandated timeframes. Therefore, investigators postpone
        §110 investigative work to conduct §105(c) discrimination investigations. MSHA
        initiated 166 §105(c) discrimination investigations in FY 2010, 157 in FY 2011,
        and 213 in FY 2012.

       Special Investigators must carefully develop all investigation cases that could
        potentially result in civil penalties or criminal prosecution.

       TCIO did not have enough staff available to timely review the cases submitted by
        the Districts. According to MSHA, in April 2010, there were 97 cases in TCIO for
        review. In April 2011, there were 93 but by April 2012 and April 2013, this grew to
        105 and 142 cases respectively. Over the past two years, MSHA has hired 5
        compliance specialists in TCIO and filled the vacant Deputy Director position in
        July 2013 to ensure cases were reviewed timely.

Although there are no statutorily prescribed timeframes for completing §110 special
investigations, MSHA should make its best efforts to meet the standards it has
implemented. Established standards are tools government agencies use to measure
and improve their performance. Given that MSHA was meeting its §110 special
investigation timeframe goals only 30 percent of the time, the agency should reevaluate
either the program’s activities, the reasonableness of the timeframe goals, or both.
Without knowing if the timeframe goals are reasonable, MSHA cannot properly evaluate
the performance of its §110 special investigations program or make informed decisions
regarding the resources devoted to the program.


Finding 2 — MSHA's §110 Case File Documentation was Inconsistent

Although in general we found that MSHA properly included necessary materials in its
case files, we found some instances in which it did not include all documentation
required or document the rationale for not conducting an investigation on PKWs.
Without complete information, MSHA cannot ensure the investigations adequately
supported conclusions they reached or that all investigations warranted were initiated.

Case Files

MSHA Districts did not maintain consistent documentation in §110 special investigation
case files because the Handbook did not clearly address all documentation
requirements. The Handbook states only that a case file will be established for every
special investigation and for each case file, the completed MSHA Form 7000-20
(PKW), 5 copies of the citation or order, modifications (if issued), Legal Identity Report

5
 MSHA Form 7000-20 and inspection notes are only required when the PKW review resulted in the
opening of an investigation.

                                                     MSHA Can Improve Its Section 110 Process
                                                6               Report No. 05-13-008-06-001
                                      U.S. Department of Labor – Office of Inspector General


Form, inspector’s notes, and “any other supporting documentation” should be included.
MSHA’s guidance was not sufficient to identify all documents that investigators should
include in case files. While each case may need different supporting documentation, all
cases should have a minimum sufficient core of common documentation so as to
ensure cases are consistently developed.

Special Investigators are responsible for conducting §110 special investigations, which
involve interviewing individuals, reviewing pertinent records, documents, and files, and
writing the final investigative report. Supervisory Special Investigators are responsible
for assigning cases, reviewing PKWs, and reviewing and approving work products
completed by Special Investigators. District Managers are responsible for the overall
operation of the Special Investigations Program in their Districts. TCIO provides
guidance to promote consistent application of the program; and reviews and analyzes
investigation case files for quality, substance, and validity of conclusions.

Of the 93 case files we reviewed, 7 (8 percent) were missing one or more documents.
These 7 case files were missing the 12 documents listed in the table below. In 6 of the 7
case files, the memorandum of investigation or closure letter was included enabling us
to conclude that MSHA conducted these investigations adequately. The remaining case
file did not contain critical documentation, such as the memorandum of investigation or
closure letter. Consequently, we could not determine if MSHA conducted this
investigation appropriately.

                                 Missing Documentation
                                  Document                         Instances
            Memorandum of Investigation                                 1
            Transmittal/Closure Letter or Memorandum                    3
            Mine Status Report Form                                     2
            Legal Identity/Articles of Incorporation                    3
            Interview Statements/Memorandums of Interview               1
            Citation/Order History                                      1
            Interviewee Contact Information                             1
            Total                                                      12

All these case files were reviewed at either the District and TCIO levels, but the missing
documentation indicates these reviews were not adequate. Absent sufficient
documentation, MSHA cannot demonstrate that investigators adequately supported the
conclusions they reached.

Investigations Not Initiated

In a few cases, MSHA did not document its rationale for not initiating investigations.
Adequate support was lacking in 6 percent (5 out of 85) of the cases we reviewed in
which MSHA did not initiate a §110 special investigation.


                                                MSHA Can Improve Its Section 110 Process
                                            7              Report No. 05-13-008-06-001
                                      U.S. Department of Labor – Office of Inspector General


If an inspector issues a citation or order that meets criteria for a possible knowing or
willful violation, he or she completes a “PKW” form. The form is reviewed by a Field
Office Supervisor, Assistant District Manager, and Supervisory Special Investigator for
evidence of a possible knowing or willful violation. After the Assistant District Manager
and Supervisory Special Investigator have completed their review, the form is forwarded
to the District Manager. With the assistance of the Supervisory Special Investigator, the
District Manager determines whether to initiate an investigation or take no further action,
and documents this decision on the form. If the determination is not to initiate an
investigation, a memorandum to the file is distributed to all persons involved in the
review documenting the reasons for not initiating an investigation. A copy of the PKW,
along with a copy of the citation or order and supporting documentation justifying the
action taken is sent to TCIO.

We noted that while MSHA’s Handbook requires Districts to document their rationale,
MSHA had not developed or implemented specific controls, such as a review by TCIO,
to ensure that Districts have adhered to this requirement. Without documentation to
support why the District did not initiate an investigation, MSHA cannot demonstrate it
conducted all investigations it should.


Finding 3 — MSHA Did Not Maintain Adequate §110 Data Systems

MSIS does not allow TCIO to compile or track all data related to investigations. To
compensate, TCIO maintains some data related to the events and cases in an ad hoc
database. However, this ad hoc system made it cumbersome to manage all aspects of
the investigation process.

In 2003, MSHA identified MSIS deficiencies, which included not capturing all the
necessary data to compile and track §110 cases. When a Special Investigator enters an
investigation into MSIS, the system assigns it an event number. The event number is
the unique identifier by which investigations are tracked in MSIS. However, we found
that MSIS did not associate event numbers with case numbers, issued citations,
assessments, and settlements, making it difficult to query the investigation data.

MSHA also assigned each investigation a case number, which was not a data field in
MSIS. TCIO used the case number to track all §110 cases. In order to be able to track
its data by case number, TCIO established an ad-hoc database to record data related to
each §110 case. However, this database was not adequate for MSHA to link information
to the MSIS information or to compile data that allowed TCIO to easily track all data
related to §110 investigations.
Credentials

MSHA did not maintain an adequate system to track the credentials. TCIO failed to
record in its system credential issuance and expiration dates for 18 of the 80
investigators in our sample cases.


                                                MSHA Can Improve Its Section 110 Process
                                            8              Report No. 05-13-008-06-001
                                     U.S. Department of Labor – Office of Inspector General


The Government Accountability Office’s Standards for Internal Control in the Federal
Government require that agencies establish physical controls to secure vulnerable
assets. This guidance goes on to state that federal assets should be periodically
counted and compared to control records. Credentials issued to Special Investigators
are a valuable asset that MSHA needs to control.

Although MSHA developed a draft standard operating procedure (SOP) and a prototype
database for tracking credentials, neither had been completed nor implemented. The
draft SOP states that TCIO will enter credential numbers, issuance dates, and
expiration dates for credentials issued into a credential database. The database is an
enhancement to the MSIS scheduled for implementation in 2015. Pending completion of
the MSIS enhancements, TCIO tracked credentials in an ad hoc database using one or
more compliance specialists whose collateral duties included entering credential
information into the database.

Without implemented SOPs and complete information in its database, MSHA may not
be able ensure all Special Investigators were credentialed, expired credentials were
renewed, or credentials that were no longer needed due to departure or retirement were
properly disposed of in accordance with Department of Labor requirements.
Also, without adequate data or management reports, MSHA cannot ensure it initiates
investigations and reviews case files within established timeframes; documents the
rationale for not pursuing an investigation; includes all required documentation in case
files; and tracks Special Investigator credentials.


OIG CONCLUSION

In general, MSHA could improve its National Special Investigations Program to
complete work within timeframe goals, obtain or document all needed or required
information, and implement changes to ensure TCIO has all data needed to manage the
program effectively and efficiently. All federal agencies must establish measures to
determine if their programs are effective and efficient. These goals, while not
necessarily set by statute, allow an agency to effectively manage its resources.
Likewise, guidance on minimum or common documentation requirements is necessary
to ensure those conducting §110 investigations are held to consistent documentation
standards.




                                               MSHA Can Improve Its Section 110 Process
                                           9              Report No. 05-13-008-06-001
                                     U.S. Department of Labor – Office of Inspector General


RECOMMENDATIONS

We recommend that the Assistant Secretary for Mine Safety and Health:

   1. Review goal monitoring activities and assess the validity of established §110
      special investigations goals and implement either revised activities or goals to
      ensure MSHA initiates and submits cases on a more timely basis;

   2. Review and assess the documentation requirements in the current Handbook,
      revise it as appropriate, and provide documentation training for Special
      Investigators and TCIO personnel;

   3. Pending planned enhancements to MSIS, take steps to consolidate information
      from various systems (ad hoc and MSIS) into a single source to facilitate the
      management of all aspects of investigations.

We appreciate the cooperation and courtesies that MSHA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
  for Audit




                                                MSHA Can Improve Its Section 110 Process
                                           10              Report No. 05-13-008-06-001
             U.S. Department of Labor – Office of Inspector General




Appendices




                       MSHA Can Improve Its Section 110 Process
                  11              Report No. 05-13-008-06-001
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                   MSHA Can Improve Its Section 110 Process
              12              Report No. 05-13-008-06-001
                                      U.S. Department of Labor – Office of Inspector General


                                                                              Appendix A
Background

The purpose of MSHA is to prevent death, disease, and injury from mining and to
promote safe and healthful workplaces for the nation’s miners. Under §110(c) of the
Mine Act, each MSHA District conducts investigations of corporate operators that violate
mandatory health or safety standards or knowingly violate, fail, or refuse to comply with
any citations or orders MSHA issues. §110(c) of the Mine Act gives MSHA the authority
to propose penalties against individuals – agents of mine operators – who knowingly fail
or refuse to comply with any order MSHA issues or who violate mandatory health or
safety standards. MSHA’s TCIO is responsible for the overall administration of the
National Special Investigations Program, which governs investigations under §110(c).
TCIO provides guidance, oversight, and program evaluation. The evaluations are
designed to measure the effectiveness of the program by conducting field audits,
technical reviews, and management surveys.

When a citation or order is issued, MSHA proposes penalties using a standard formula
based on six broad factors outlined in the Mine Act. Inspectors who issue a citation or
order must complete a PKW if the citation or order meets certain criteria. Districts
initiate a §110 special investigation following the review of these forms to determine if
the violations were “knowing,” “willful,” or any other situation in which the District
Manager believes an investigation is necessary. Districts send completed investigation
reports to TCIO for review. Upon completion of its review, TCIO may send the case to
SOL for action or close the case. SOL refers certain cases to the Department of Justice
for criminal prosecution.

§110 special investigations are conducted by Special Investigators who receive training
in order to be credentialed and must meet annual refresher training requirements.
These Special Investigators prepare case files in accordance with MSHA’s Special
Investigations Procedures Handbook (PH05-I-4).

In FYs 2010 through 2012, MSHA initiated and completed 888 §110 special
investigations, proposing $1,651,490 in penalties against individuals.




                                                MSHA Can Improve Its Section 110 Process
                                           13              Report No. 05-13-008-06-001
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                   MSHA Can Improve Its Section 110 Process
              14              Report No. 05-13-008-06-001
                                      U.S. Department of Labor – Office of Inspector General


                                                                              Appendix B
Objective, Scope, Methodology, and Criteria

OBJECTIVE

The OIG conducted a performance audit to answer the following question:

   Is MSHA appropriately initiating and completing §110 special investigations?

SCOPE

The OIG reviewed §110 special investigations initiated and completed during FYs 2010
through 2012. We used a stratified sampling approach to select a sample of 93 §110
special investigations from a universe of 888 investigations started and completed
during FYs 2010 through 2012. We selected a random statistical sample of
investigations stratified by fiscal year.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

METHODOLOGY

To gain an understanding of the §110 special investigations process, we reviewed
MSHA’s policies and procedures, interviewed key Headquarters and District personnel;
flowcharted the key processes and identified decision points; and reviewed information
provided by MSHA officials.

To determine if MSHA initiated, completed, and reviewed §110 special investigations
within established timeframe goals, we reviewed a random statistical sample of case
files. Specifically, we used documentation in the case file to identify: (1) when the
citation(s) or order(s) was issued; (2) the date the District submitted the case to TCIO;
and (3) the date TCIO submitted the case to SOL (if applicable). We used these dates
for our calculations.

To determine if MSHA adequately documented §110 special investigations, we
reviewed a random statistical sample of §110 special investigation case files.
Specifically, we reviewed MSHA’s Special Investigations Procedures Handbook and
obtained guidance from MSHA officials to identify which documents are required to be
included in the case file.

To determine if MSHA used a consistent selection methodology for initiating §110
special investigations, we reviewed a sample of PKWs. Specifically, we reviewed a

                                                 MSHA Can Improve Its Section 110 Process
                                            15              Report No. 05-13-008-06-001
                                               U.S. Department of Labor – Office of Inspector General


random statistical sample of PKWs6 for cases in which a §110 special investigation was
initiated and another judgmental sample of 85 PKWs (55 from Coal Districts and 30
from Metal/Non-Metal Districts) for which a §110 special investigation was not initiated.
We reviewed the PKWs to determine: (1) how the Districts were selecting citations or
orders for special investigations; (2) if the selection process was consistent; and (3) if
reasons for not initiating an investigation were documented.

To determine if MSHA had established training criteria for staff conducting special
investigations and if that staff had received the required training, we reviewed the
Procedure Instruction Letter (PIL I12-III-02) to determine MSHA’s training criteria for
Special Investigators. We also interviewed TCIO and District personnel regarding
training criteria required to obtain Special Investigators credentials. We reviewed
training records for 80 Special Investigators to determine whether they received all
required training. We also compared each of the 80 credentials issued to Special
Investigators to MSHA’s tracking system to ensure new, transferred, or separated
Special Investigators’ status had been entered into the database.

Data Reliability

To determine the reliability of MSHA’s §110 special investigations and penalty data, we:
1) identified specific data elements from MSIS that were critical to supporting our audit
analyses; 2) obtained data for all §110 special investigations initiated and completed
during FYs 2010 through 2012 and penalties assessed for agents during FYs 2010
through 2012; 3) developed and completed steps to assess the completeness and
accuracy (i.e., reliability) of the data; 4) traced data to source documents; and
5) followed up with MSHA to clarify the meaning of the data and address discrepancies
identified. We determined that the §110 special investigations data was sufficiently
reliable for our testing purposes. However, we determined the agent penalty data
contained misclassified Federal Mine Safety and Health Review Commission decision
types and was not reliable to use in classifying the reduction in agent penalties by
decision type.

Internal Controls

In planning and performing our audit, we considered MSHA’s internal controls that
were relevant to our audit objectives by obtaining an understanding of those controls
and by assessing control risk for the purposes of achieving our objectives. The
objective of our audit was not to provide assurance on the internal controls.
Therefore, we did not express an opinion on the internal controls as a whole. Our
consideration of MSHA’s internal controls relevant to our audit objectives would not
necessarily disclose all matters that might be reportable conditions. Because of the
inherent limitations on internal controls, noncompliance may nevertheless occur and
not be detected.


6
    Possible Knowing/Willful Violation Review” form.

                                                            MSHA Can Improve Its Section 110 Process
                                                       16              Report No. 05-13-008-06-001
                                      U.S. Department of Labor – Office of Inspector General


Criteria

   •   Federal Mine Safety and Health Act of 1977, Section 110

   •   Title 30 Code of Federal Regulations, Part 100

   •   MSHA Special Investigations Procedures Handbook (PH05-I-4), August 2005

   •   Procedure Instruction Letter (PIL-I11-V-11), December 20, 2011

   •   Procedure Instruction Letter (PIL I12-III-02), August 22, 2012

   •   Civil Penalties Overview

   •   MSHA Program Policy Manual, Vol I & III

   •   MSHA General Coal Inspection Handbook (PH08-V-1) , January 1, 2008

   •   MSHA Accident Illness Investigations Procedures Handbook (PH11-I-1), June
       2011

   •   MSHA Citation and Order Writing Handbook (PH08-I-1), March 2008

   •   General Accounting Office, Standards for Internal Control in the Federal
       Government, November 1999




                                                MSHA Can Improve Its Section 110 Process
                                           17              Report No. 05-13-008-06-001
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                   MSHA Can Improve Its Section 110 Process
              18              Report No. 05-13-008-06-001
                                  U.S. Department of Labor – Office of Inspector General


                                                                          Appendix C
Acronyms and Abbreviations

DOJ             Department of Justice

FY              Fiscal Year

Mine Act        Federal Mine Safety and Health Act of 1977

MSHA            Mine Safety and Health Administration

MSIS            MSHA’s Standardized Information System

OIG             Office of Inspector General

PKW             Possible Knowing/Willful

SOL             Office of the Solicitor

SOP             Standard Operating Procedures

TCIO            Technical Compliance and Investigations Office




                                               MSHA Can Improve Its Section 110 Process
                                          19              Report No. 05-13-008-06-001
         U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                   MSHA Can Improve Its Section 110 Process
              20              Report No. 05-13-008-06-001
                                  U.S. Department of Labor – Office of Inspector General


                                                                          Appendix D
MSHA's Response to Draft Report




                                            MSHA Can Improve Its Section 110 Process
                                       21              Report No. 05-13-008-06-001
U.S. Department of Labor – Office of Inspector General




          MSHA Can Improve Its Section 110 Process
     22              Report No. 05-13-008-06-001
U.S. Department of Labor – Office of Inspector General




          MSHA Can Improve Its Section 110 Process
     23              Report No. 05-13-008-06-001
U.S. Department of Labor – Office of Inspector General




          MSHA Can Improve Its Section 110 Process
     24              Report No. 05-13-008-06-001
                                   U.S. Department of Labor – Office of Inspector General


                                                                           Appendix E
Acknowledgements

Key contributors to this report were Nicholas Christopher (Audit Director),
Robert Swedberg (Audit Manager), Ronald Larry, Charmane Miller, Kathleen Mitomi,
Fernando Paredes, and Ajit Buttar.




                                             MSHA Can Improve Its Section 110 Process
                                        25              Report No. 05-13-008-06-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
